HHS/OIG-Audit--"Review of Public Health Service Systems for Assuring that Programs Are Necessary, Productive and Nonduplicative, (A-01-93-01514)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Public Health Service Systems for Assuring that Programs Are Necessary, Productive and Nonduplicative," (A-01-93-01514)
September 19, 1994
Complete
Text of Report is available in PDF format (2.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report found that the Public Health Service (PHS) systems for assuring programs are necessary, productive and
nonduplicative form a foundation that, with some reorganization and redirection, could satisfy current and future requirements.
PHS could: (1) focus more evaluations on programs rather than processes and individual projects; (2) improve program evaluations
so they can better measure program performance; and (3) integrate evaluations into the PHS program planning, legislative
planning and budget systems. The PHS agreed with our recommendations.